Briefing No. D-2010-RAM-003            March 10, 2010




                Repair Aircraft Parking Apron
                  at Naval Station Norfolk
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON , VIRGINIA 22202- 4704 


                                                                               MAn 1 a 2010


MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES ENGINEERING
                 COMMAND, MID-ATLANTIC


SUBJECT: 	 Repair Aircraft Parking Apron at Naval Station Norfolk
           (Briefing No. D-20 I O-RAM-003)


We are providing this report for your information and use. We conducted this audit pursuant to
Public Law 111-5, "American Recovery and Reinvestment Act of2009," February 17, 2009.
We considered management comments on a draft of this report when preparing the final report.

The comments provided by the Assistant Secretary of the Navy (Financial Management and
Comptroller), on behalf of Naval Facilities Engineering Command, Mid-Atlantic, were
responsive to Recommendations A and C. Although the Assistant Secretary's comments were
partially responsive for Recommendation B, actions taken fully met the intent of the
recommendation. The Assistant Secretary's comments conformed to DOD Directive 7650.3;
therefore, additional comments are not required.

We appreciate the cOllltesies extended to the staff. Please direct questions to Mr. Timothy
Wimette at (703) 604-8876 (DSN 664-8876).




                                             Daniel R. Blair, CPA
                                             Principal Assistant Inspector General
                                                for Auditing
Repair Aircraft Parking Apron 

  at Naval Station Norfolk


 (Recovery Act Project No. RM 173-05)




(Project No. D2009-D000LH-0321.000)




                                        1


                 Briefing No. D-2010-RAM-003 (Project No. D2009-D000LH-0321.000)     March 10, 2010



                  Results in Brief: Repair Aircraft 

                  Parking Apron at Naval Station 

                  Norfolk


What We Did                                                     longer needing repair; and did not complete the
We evaluated DOD’s implementation of plans for the              economic analysis for the project. As a result, DOD
American Recovery and Reinvestment Act of 2009                  did not have reasonable assurance that Recovery Act
(Recovery Act). Specifically, we determined whether             funds were used appropriately. In addition, the
the Repair Aircraft Parking Apron project was                   Department of the Navy could make approximately
adequately planned to ensure the appropriate use of             $24.9 million in Recovery Act funds available for other
Recovery Act funds.                                             projects.

What We Found                                                   What We Recommend
Naval Facilities Engineering Command (NAVFAC)                   We recommend that the Commander, NAVFAC Mid-
Mid-Atlantic officials adequately justified and supported       Atlantic reduce the scope of the Repair Aircraft Parking
repair and reconstruction for some sections of the              Apron project and revise the current DD Form 1391 to
aircraft parking apron, taxiways, and heliport apron,           reflect the revision, complete a detailed economic
totaling about $18.7 million in costs. However, other           analysis, and develop a plan to use the $24.9 million in
sections of the Repair Aircraft Parking Apron project,          potential savings for other projects.
valued at about $24.9 million, were not properly
planned/scoped to ensure appropriate use of Recovery
Act funds.                                                      Management Comments and Our Response
                                                                The Assistant Secretary of the Navy (Financial
Some sections of the project were not properly scoped           Management and Comptroller), on behalf of NAVFAC
because NAVFAC Mid-Atlantic planners included                   Mid-Atlantic, was responsive to all but one
out-year reconstruction requirements for the South Mat          recommendation. Although the Assistant Secretary’s
Apron (SMA) section 1 and the southern section of               comments were partially responsive on one
SMA 2 of the aircraft parking apron; did not conduct an         recommendation, actions taken fully met the intent of
economic analysis for the addition of a taxiway;                the recommendation. Therefore, additional comments
included a section of the aircraft parking apron no             are not required.

                                                                                                                           2


                               Table of Contents


                                                                                                         Page


Acronyms ..................................................................................................4


Background ............................................................................................. 5


Objective .................................................................................................. 6


Criteria ..................................................................................................... 7


Scope....................................................................................................... 8


Methodology........................................................................................... 9


Finding.………………………………………………………………………... 11 

Discussion of Audit Results………………………………………............... 12


Naval Station Norfolk Issues/Concerns……………..……….................... 17


Management Actions………………………………………......................... 19


Conclusion.……………………………………………………...................... 21


Recommendations, Management Comments, and Our


   Response….…………..……………………………...............................22


Assistant Secretary of the Navy (Financial Management


   and Comptroller) Comments…..…………………………….................25

                                                      3


         Acronyms



CIM        Chevron Industrial Membrane
FOD        Foreign Object Debris
HPA        Heliport Apron
IG         Inspector General
NAVFAC     Naval Facilities Engineering Command
OA         Overrun Area
O&M        Operations & Maintenance
PC         Pavement Condition
PCI        Pavement Condition Index
PWD        Public Works Department
QMAD       Quantitative Methods and Analysis Division
RFP        Request For Proposal
RLA        Red Label Apron
SF         Square Feet
SMA        South Mat Apron
USACE      U.S. Army Corps of Engineers

                                                        4


                           Background




 American Recovery and Reinvestment Act of 2009, P.L. 111-5,
  February 17, 2009

     Preserve and create jobs, promote economic recovery, and assist those
      most impacted by the recession;

     Provide investments needed to increase economic efficiency by spurring
      technological advances in science and health; and

     Invest in transportation, environmental protection, and other infrastructure
      that will provide long-term economic benefits, and stabilize State and local
      government budgets in order to minimize and avoid reductions in essential
      services and counterproductive State and local tax increases.

 The Office of the Under Secretary of Defense (Comptroller) states that the
  American Recovery and Reinvestment Act of 2009 (Recovery Act) requires
  DOD IG to conduct vigorous oversight of its execution by DOD.

                                                                                     5


                             Objective




The overall objective is to evaluate DOD’s implementation of plans for the Recovery
Act. To meet our objective, we assessed the planning and funding for the Recovery
Act project to ensure accountability and transparency. Specifically, we determined
whether the Repair Aircraft Parking Apron project was adequately planned to ensure
the appropriate use of Recovery Act funds.




                                                                                      6


                               Criteria




 Office of Management and Budget Memorandum M-09-15, “Updated
  Implementing Guidance for the American Recovery and Reinvestment Act of
  2009,” April 3, 2009

 Office of the Chief of Naval Operations Naval Instruction 11010.20G, “Facilities
  Projects Instruction,” October 14, 2005

 Naval Facilities Engineering Command (NAVFAC) P-442, “Economic Analysis
  Handbook,” October 1993




                                                                                     7


                                                 Scope



   Appropriation: Department of the Navy — approximately $1.9 billion for Navy and Marine Corps Projects
    [Operations & Maintenance (O&M) and Military Construction]

   Project Summary: Naval Station Norfolk — Project No. RM 173-05, Repair of Aircraft Parking Apron (Facilities,
    Sustainment, Restoration, and Modernization) — $43.6M (O&M, Navy). The requirements included:
      reconstruct South Mat Apron sections 1, 2 , 3, and 4; totaling 1,164,583 square feet (SF) — estimated cost of
       $33.7 million;
      reconstruct Seaplane Taxiway 3; 18,432 SF — estimated cost of $533,000;
      mill, overlay, and seal of Red Label Aprons (RLA) 1 and 2; 503,121 SF — estimated cost of $1.1 million;
      add taxiway at north end of RLA 1 and RLA 2; 19,405 SF — estimated cost of $521,000;
      miscellaneous pavement reconstruction for Heliport Apron (HPA) sections 1-1, 1-2, and 2-1 and Overrun Area
       (OA) section 9R-1A; 23,500 SF — estimated cost of $680,000; and
      miscellaneous storm sewer reconstruction for HPA sections 1-1, 1-2, and 2-2, and OA section 9R-1A;
       1,600 linear feet — estimated cost of $410,000.
     Note: Included in the total project cost of $43.6M, but not in the requirements above, are contingency, overhead,
             and build-design totaling about $6.5 million.

   Documents/records reviewed:
      Economic Analysis
      Cost Estimates
      DD Forms 1391 (Requirements)
      2003 and 2007 Airfield Pavement Condition Surveys
                                                                                                                     8


                                         Methodology



   We conducted this performance audit from July 2009 through February 2010. We generally complied with generally
    accepted government auditing standards. However, due to the unique requirements of the Recovery Act, along
    with time limitations for executing the respective audit, we did not fully comply with some planning and reporting
    standards. In our opinion, not following some aspects of these standards had no effect on our conclusions.

   Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and Analysis Division (QMAD) of
    the DOD IG analyzed all DOD agency-funded projects, locations, and contracting oversight organizations to assess
    the risk of waste, fraud, and abuse associated with each. They selected most audit projects and locations using a
    modified Delphi technique, which allowed them to quantify the risk based on expert auditor judgment and other
    quantitatively developed risk indicators. Initially, 83 projects with the highest risk rankings were selected. Auditors
    chose some additional projects at the selected locations. QMAD used information collected from all projects to
    update and improve the risk assessment model.

   QMAD used additional predictive analytic techniques for two other special cases: (1) projects performed jointly with
    State National Guard units in the 50 States and (2) public works projects funded directly through the U.S. Army
    Corps of Engineers (USACE). They factored in workload volume, proposed costs, geographic districts, and
    USACE districts and regions in evaluating the relative risk of problems with oversight and completion.

   QMAD did not use classical statistical sampling techniques that would permit generalizing results to the total
    population because there were too many potential variables with unknown parameters at the beginning of this
    analysis. The predictive analytic techniques employed provided a basis for logical coverage not only for Recovery
    Act dollars being expended, but also for types of projects and types of locations across the Military Services,
    Defense agencies, State National Guard units, and public works projects managed by USACE.
                                                                                                                         9


                                       Methodology
                                              (continued)


   We interviewed personnel from Commander, Navy Installations Command; NAVFAC Headquarters; NAVFAC
    Atlantic; NAVFAC Mid-Atlantic; and Naval Station Norfolk.

   We reviewed DD Form 1391 requirements, justifications, Airfield Pavement Condition Surveys, funding documents,
    and cost documentation supporting the March 2009 DD Form 1391.

   We toured parking aprons, taxiways, runways, and the heliport apron at Naval Station Norfolk.

   We reviewed information provided by NAVFAC Mid-Atlantic personnel after we outbriefed our tentative finding,
    conclusions, and recommendations. Specifically, we reviewed the:
      November 17, 2009, DD Form 1391; and
      NAVFAC Solicitation No. N40085-09-R-5067.




                                                                                                                   10


                                                          Finding



 Condition: NAVFAC Mid-Atlantic officials adequately justified and supported repair and reconstruction for some 

            sections of the aircraft parking apron, taxiways, and heliport apron, totaling about $18.7 million in costs.


            However, other sections of the Repair Aircraft Parking Apron project, valued at about $24.9 million*, were 

            not properly planned/scoped to ensure appropriate use of Recovery Act funds.



 Causes:		      This condition occurred because planners:

                   • included out-year reconstruction requirements for South Mat Apron (SMA) section 1 (83,952 SF) and
                     southern section of SMA 2 (1,100 ft [about 627,872 SF]) — estimated cost of $20.5 million;

                  •		 did not conduct an economic analysis for the addition of a taxiway and used cement concrete unit costs
                      instead of asphalt concrete unit costs — estimated cost of $521,000;

                  •		 included a section of the aircraft parking apron no longer needing repair — compass calibration pad-1B
                      (7,202 SF) — estimated cost of $208,000; and

                  • did not complete the economic analysis for the project.

 Effect: 	     DOD did not have reasonable assurance that Recovery Act funds were used appropriately for the 

               entire project. In addition, by revising the scope of the Repair Aircraft Parking Apron project, the 

               Department of the Navy could make approximately $24.9 million in Recovery Act funds available for


               other projects. (Funds Put To Better Use)


* Costs include contingency, overhead, and build-design, totaling about $3.6 million.                                     11


                            Discussion of Audit Results



Airfield Pavement Condition Survey

In February 2007, NAVFAC Atlantic completed the Pavement Condition (PC) Survey on the condition of the airfield
pavement at Naval Station Norfolk (Chambers Field, Naval Air Station Oceana Air Detachment Norfolk). The purpose
was to provide pavement maintenance and repair recommendations for runway and airfield pavements (taxiways and
parking aprons) based on pavement condition index (PCI) values. PC Surveys are performed every 3 to 4 years.
According to the PC Survey, repair projects should be considered for pavements with pavement condition indexes at
or below the specified values or where foreign object debris (FOD)* is in the immediate or foreseeable future. The
PC Survey also states that most of the apron pavement and some of the taxiway pavement were rated as being in
good to satisfactory condition. According to NAVFAC Mid-Atlantic personnel, the requirements for the Repair Aircraft
Parking Apron project were based on results from the PC Survey.

  Note: The PC Survey states that where jet aircraft routinely operate, maintenance and preventive
        maintenance should be considered on aprons with a PCI value above 60.


                                                                    Present                  Predicted              Predicted
                     Section                    Use                PCI (2007)                PCI (2011)             PCI (2015)

                      SMA 1                    Apron                    79                        68                     63

                      SMA 2                    Apron                    76                        66
                    62



  * Any object located in an inappropriate location in the airport environment that has the capacity to injure airport personnel and
   damage aircraft.
                                                                                                                                       12


                             Discussion of Audit Results


                                                             (continued)

South Mat Apron

We conclude that portions of SMA sections 2 (northern 400 feet [about 228,317 SF]), 3, and 4 (totaling about 224,442 SF)
at an estimated cost of $13.1 million, were adequately justified. However, requirements for reconstruction of SMA sections
1 (83,952 SF) and 2 (southern 1,100 ft [about 627,872 SF]) in FY 2010 were not adequately justified. According to the
PC Survey, reconstruction of these two sections, estimated at a cost of $20.5 million, is recommended in FY 2015. Also,
the PC Survey states:

        SMA section 1 does not see routine traffic and is recommended to be included in the “reconstruct” of the southern
         portion of SMA section 2 in FY 2015. The PC Survey concluded that only routine maintenance* was needed to
         control FOD for section 1 until FY 2015. In addition, the NAVFAC Atlantic technical expert for airfield paving
         (technical expert), stated that although SMA section 1 needed some isolated repairs, it did not need wholesale
         repairs. The technical expert concluded that SMA section 1 is in good condition and that routine maintenance is
         sufficient for now.

        SMA section 2 should receive routine maintenance until FY 2011, when reconstruction of the northern section
         (400 feet [about 228,317 SF]) is recommended. In addition, the PC Survey concluded that the addition of SMA
         section 6** allows reconstruction of SMA section 2 (southern 1,100 feet [about 627,872 SF]) to be deferred until
         FY 2015.



 * Includes crack sealing, small-scale repairs, such as joint sealing and cleaning, grass removal, and rubber removal.
**Not included in this project for repair or reconstruction.                                                             13


                        Discussion of Audit Results


                                                  (continued)

South Mat Apron (continued)

In addition to the PC Survey not adequately supporting SMA section 1 and SMA 2 (southern 1,100 feet), DD Form 1391
does not adequately support the reconstruction of these sections. The “Impact If Not Provided” section of DD Form 1391
states that “routine maintenance, if further deferred, will result in the requirement for major repair and replacement of
pavements. There will be an increasing probability of FOD to aircraft engines.” In summary, this impact statement shown
in the March 2009 and May 2008 DD Forms 1391 highlights the requirement for routine maintenance and not
reconstruction.

The May 2008 DD Form 1391 for repair of the aircraft parking apron seemed to coincide with the recommendations in the
PC Survey. Specifically, DD Form 1391 showed joint sealing, patching, and repairing of the same sections totaling
$5.7 million. When Recovery Act funds became available for the same May 2008 project — just 9.5 months later —
estimated project costs increased by about 660 percent: from $5.7 million to $43.6 million.




                                                                                                                       14


                          Discussion of Audit Results
                                                        (continued)

Addition of Taxiway to Red Label Apron 1 and 2
The addition of a taxiway (19,405 SF), at an estimated cost of $521,000, to make effective use of other aircraft apron
sections for parking aircraft, should be included in the economic analysis to substantiate its costs and benefits.

If the economic analysis supports the taxiway addition, asphalt concrete costs estimated at $18/SF versus cement
concrete costs estimated at $26.83/SF should be used because taxiways are generally constructed with asphalt,
according to planners in the NAVFAC Mid-Atlantic Public Works Department (PWD). This change will result in about
$172,000 that can be applied towards other Recovery Act requirements.*

Reconstruction of Seaplane Taxiway
Requirements to reconstruct seaplane taxiway section 3 (18,432 SF), at an estimated cost of $533,000, included a
section that no longer needed repair. The section no longer needing repair, the “compass calibration pad-1B” (7,202
SF), with an estimated cost of $208,000, results in funds that can be applied towards other Recovery Act requirements.




* Potential monetary benefits were calculated based on the reduced cost associated with Red Label Apron sections 1 and 2.   15


                       Discussion of Audit Results


                                                  (continued)

Economic Analysis
The economic analysis used to support the justification for repair and reconstruction of the aircraft parking apron was
incomplete. Three of the six key steps were not assessed in determining the most efficient and effective use of
resources. These three steps were formulate assumptions, determine cost and benefits, and compare costs and
benefits/rank alternatives.

The NAVFAC Economic Analysis Handbook states that the economic analysis is a systematic approach to identify,
analyze, and compare costs and benefits of alternative courses of action to achieve a given set of objectives. A six-step
approach is used — define the objective, generate alternatives, formulate assumptions, determine costs and benefits,
compare costs and benefits and rank alternatives, and perform sensitivity analysis.




                                                                                                                          16


                                     Naval Station Norfolk


                                       Issues/Concerns


Potential Foreign Object Debris Hazards



NAVFAC and Naval Station Norfolk officials discussed concerns and risks associated with FOD* and its impact on the
mission at Naval Station Norfolk. Discussions were meant to supplement the lack of information in DD Form 1391 and
the PC Survey and to justify reconstruction of SMA section 1 and SMA 2 (southern 1,100 feet) in FY 2010 rather than
FY 2015. Officials stated that FOD poses an operational risk to both aircraft (engine damage) and personnel (safety)
working on the parking apron; however, as mentioned on page 14, DD Form 1391 did not detail operational risks
impacting Naval Station Norfolk missions if the project was not approved. As we toured the aircraft parking apron,
NAVFAC officials pointed out more “potential” FOD hazards than actual FOD impacting current operations.

PWD officials stated that the approval chain for DD Form 1391 understood FOD operational risks, so they did not detail
FOD-related matters. They also stated that DD Form 1391 is a technical document and agreed that they need to better
articulate and document impact on the warfighter mission if specific projects are not approved. Officials stated that for
future DD Forms 1391, they plan to highlight impacts to the warfighter mission for all proposed projects.




* Examples include rocks, broken pavement, and joint sealant debris.		 The intake suction from a jet engine is often powerful enough to suck up
 loose material lying on the runway, and the winds created by a helicopter or prop-driven aircraft’s rotors or by a jet blast can send such objects
 airborne, creating hazards to nearby personnel.
                                                                                                                                                  17
                              Naval Station Norfolk


                                Issues/Concerns


                                                 (continued)

Potential Foreign Object Debris Hazards (continued)

PWD and Flight Operation officials stated that they conduct FOD Control Inspections and daily FOD walks; however,
command does not measure or document the severity or criticality of FOD and its impact to the mission or operations.
According to the technical expert, the 2007 PC Survey is primarily a tool used to report PCI values and does not expand
on FOD hazards and the risks to Service personnel and aircraft. Therefore, the PC Survey does not fully support these
hazards and risks.

During a tour of SMA sections 1 and 2, the technical expert showed us patchwork performed on the apron with Chevron
Industrial Membrane (CIM)-1000 repair material (tar-like sealant), which is used to control FOD as well as seal joints
(a 4-5 year fix). However, according to the technical expert, the poor application (spillage on concrete) of the CIM-1000
on SMA section 2 has contributed to the risk of FOD. The technical expert was not sure whether the CIM-1000 was
applied by contractor or PWD personnel, but either way, the quality of work has resulted in some FOD risks on the apron.
In addition to CIM-1000 causing FOD risks, the technical expert showed us some examples of poor concrete patchwork
and sealing surface, which also have high FOD potential. PWD officials stated that although there is little chance of FOD
impacting operations, operational risks are high when FOD is present on the apron (safety, engine damage). We
understand the operational risk associated with FOD; however, it is difficult to conclude whether FOD is driving near-term
(FY 2010) reconstruction for SMA section 2 because there are no studies, surveys, or other documents detailing the
severity of FOD and its impact to mission at Naval Station Norfolk. Therefore, routine maintenance for SMA section 1 and
the southern section of SMA 2 should mitigate risks of FOD.
                                                                                                                      18


                            Management Actions



We commend NAVFAC Mid-Atlantic for taking actions to address issues we identified during our audit.
Specifically, NAVFAC Mid-Atlantic:

         amended the June 12, 2009, Solicitation No. N40085-09-R-5067, for the Repair Aircraft Parking
          Apron project. The amendment, effective November 4, 2009, removes reconstruction of SMA
          sections 1 and 2 from the initial scope of the proposed project and makes the respective sections
          options. The amendment clearly states that the Government is NOT obligated to exercise either
          option; however, the Government has the right to award either option to the contractor up to 120
          days after contractor award.

         revised DD Form 1391 for the Repair Aircraft Parking Apron project (dated November 17, 2009).
          NAVFAC Atlantic and Mid-Atlantic officials provided additional information in the revised
          DD Form 1391 regarding pavement condition and FOD. In summary, the revised DD Form 1391
          recommends routine maintenance for SMA section 1 until FY 2015, which is our recommended
          course of action, and reconstruction of SMA section 2, with which we do not agree.

Based on our conclusions to perform routine maintenance for SMA section 1, and NAVFAC Mid-Atlantic’s
revision to DD Form 1391 recommending routine maintenance and not reconstruction for SMA section 1,
coupled with our conclusions briefed to Command on November 5, 2009, responsible officials should not
execute option 1 of Solicitation No. N40085-09-R-5067 for reconstruction of SMA section 1. Rather, NAVFAC
Mid-Atlantic officials should amend the solicitation to reflect routine maintenance and NOT reconstruction.

                                                                                                              19


                            Management Actions


                                               (continued)

Additionally, the “Cost Estimates” section of the revised DD Form 1391 does NOT reflect routine maintenance
for SMA section 1 as recommended in the “Requirement” section. Rather, the cost estimates reflect
reconstruction of SMA section 1. NAVFAC Mid-Atlantic officials should revise the respective DD Form 1391 to
reflect routine maintenance for SMA section 1.

Although the revised DD Form 1391 provides more details and information regarding the need for
reconstruction of SMA section 2, NAVFAC Mid-Atlantic officials did not provide studies, surveys, or other
documents detailing the severity of FOD and its impact to mission. As a result, NAVFAC Mid-Atlantic officials
should not execute option 2 of Solicitation No. N40085-09-R-5067 for reconstruction of SMA section 2
(southern 1,100 ft [about 627,872 SF]). However, we do agree that routine maintenance is required.




                                                                                                                20


                                          Conclusion



Although NAVFAC Mid-Atlantic officials adequately justified and supported repair and reconstruction for other
sections of the aircraft parking apron, taxiways, and heliport apron totaling about $18.7 million in costs, they
need to adequately plan the repair and reconstruction of SMA sections 1 and 2 for the aircraft parking apron to
ensure the appropriate use of Recovery Act funds. Responsible officials need to reduce the scope (SMA
section 1 and southern section of SMA 2) of the aircraft parking apron repair efforts, and the Department of the
Navy should use the $24.9 million in potential savings as a result of the reduction in scope, for other relevant
and justified Recovery Act projects. This action should be taken in accordance with Under Secretary of
Defense (Comptroller)/Chief Financial Officer memorandum, “Project Cost Variations During Execution of
American Recovery and Reinvestment Act Expenditure Plans for Infrastructure Investments,” May 7, 2009.




                                                                                                                   21


                      Recommendations,


                  Management Comments, and 

                        Our Response


We recommend that the Commander, Naval Facilities Engineering Command Mid-Atlantic:

A. Reduce the scope of the Repair Aircraft Parking Apron project (Recovery Act Project No.
   RM 173-05) by about 719,026 square feet (totaling about $20.7 million in costs) and revise the current DD
   Form 1391 to reflect the revision. Specifically:

      1.		 Delete the requirements for reconstruction of:

            a.		 South Mat Apron sections 1 (83,952 square feet) and 2 (southern 1,100 feet [627,872 square
                 feet]) totaling about $20.5 million in costs.

            b. The “compass calibration pad-1B” (7,202 square feet) totaling about $208,000 in costs.

      2.		 Include routine maintenance and repair requirements for South Mat Apron sections 1 (83,952
           square feet) and 2 (southern 1,100 feet [627,872 square feet]).

      3.		 Amend Solicitation No. N40085-09-R-5067 to include routine maintenance and repair requirements
           for South Mat Apron sections 1 (83,952 square feet) and 2 (southern 1,100 ft [627,872 square feet]).




                                                                                                                  22


                    Recommendations,


                Management Comments, and 

                      Our Response 

                                           (continued)

B. Using the six-step approach, complete a detailed economic analysis to determine the most efficient and
   effective use of resources needed to support the justification for the repair and reconstruction of the
   aircraft parking apron. As part of the economic analysis, determine whether the addition of the taxiway is
   needed and:

      1.   If justified, reduce the scope of the project and revise DD Form 1391 by $172,000.

      2.   If not justified, reduce the scope of the project and revise DD Form 1391 by $521,000.

C. Develop a plan to use the $24.9 million in potential savings for other projects in accordance with Under
   Secretary of Defense (Comptroller)/Chief Financial Officer memorandum, “Project Cost Variations During
   Execution of American Recovery and Reinvestment Act Expenditure Plans for Infrastructure
   Investments,” May 7, 2009.




                                                                                                            23


                          Recommendations,


                        Management Comments,


                          and Our Response


                                               (continued)
Assistant Secretary of the Navy (Financial Management and Comptroller)
The Assistant Secretary of the Navy (Financial Management and Comptroller), on behalf of Naval Facilities
Engineering Command, Mid-Atlantic, agreed. The Assistant Secretary stated that the Department of the Navy
has taken actions to reduce the scope of the project in accordance with our recommendations. The Assistant
Secretary also stated none of the options in Recommendations A and B were included in the final contract.
Additionally, the associated funds have been realigned for other Recovery Act projects.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments were responsive for
Recommendations A and C. However, comments for Recommendation B were partially responsive. Although
the comments were partially responsive, actions taken fully met the intent of the recommendations. Therefore,
no additional comments are required.




                                                                                                                24


Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments




                               THE ASSISTANT SECRETARY OF THE NAVY
                                 (FINANCIAL MANAGEMENT AND COMPTROlLER)
                                           1000 NAVY PENTAGON
                                        WASHINGTON DC 20350-1000
                                                                                February 18, 20 I 0

      MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: DoOlG Draft Report (Projeci No. D 2009-DOOOL H-0321.000); Re pair of
               Aircraft Parking Apron at Nava l Station Norfolk

             The DoOlG Draft Report (Projecl No. D 2009-DOOOLH-032 I .000); Re pair of
      Aircraft Parking Apron at Naval Station Norfolk, contained the fo llowing
      recommendations:

             3. Reduce the scope of the Repair of Aircraft Parking Apron project (Recovery
      Act Project No. RM 173-05) by 7 19,026 square feet (total ing $20.7 million in cost) and
      revise the current form 1391 to reflecllhe revision.

              b. Using the six-step approach, complete a detailed economic analysis to
      determine the most efficient and effective use of resources needed to suppon the
      justificat ion for the repair and reconstruction of the aircraft parking apron. As pan of the
                                   Click to add JPEG file
      economic analysis. detemtine whether the addition of the taxiway is needed.

             c. Develop a plan to use the $24.9 mill ion in potential savings for other Recovery
      Act projects.

             The Departmen t of the Navy concurs with the above recommendations and has
      taken the following actions: Project No. RM 173-05 was reduced in scope in accordance
      with the recommendations prior 10 award. None of the options challenged in
      recorrunendations (a) and (b) were included in the finaJ contract. The associated funds
      have been identifi ed for reaJ.ignment to other ARRA projec ts.


                                                   ~9-.c..~
                                                    Gladys J. Commons




                                                                   25
